Message From the Inspector General

    I am pleased to present the results and accomplishments of the Office of Inspector General               RT
                                                                                                               ME
                                                                                                                          NT OF TH
                                                                                                                                  E
                                                                                                                                      I
(OIG) from October 1, 2005, through March 31, 2006. During this reporting period, we have




                                                                                                         A




                                                                                                                                      N
                                                                                                       EP




                                                                                                                                          TE
                                                                                                 U.S. D




                                                                                                                                            RIO
continued to emphasize our results-oriented approach to audit and investigative activities. We




                                                                                                                                            R
                                                                                                  �                                          �


have been dedicated to going beyond detecting fraud, waste, abuse, and mismanagement, and




                                                                                                                                        AL
                                                                                                  OF
                                                                                                       Ag
                                                                                                         en




                                                                                                                                      ER
                                                                                                    FI
                                                                                                             of




                                                                                                           ts
actually assisting the Department of the Interior (DOI) in identifying and implementing better          E       P   osi




                                                                                                       C
                                                                                                             OF        tive




                                                                                                                                  N
                                                                                                                               GE
                                                                                                                        angeCh
                                                                                                                     INSP
                                                                                                                         ECTOR

ways of performing its operations. We are accomplishing this by taking a more solution-based
approach to our audit and investigative activities and measuring our success through results.

    We believe that to be effective and to achieve positive results, we need to educate and inform rather than
simply criticize. The written products we generate offer recommendations, suggestions, and examples of best
practices to assist DOI and its bureaus in improving operations. In this Semiannual Report, we discuss our
ongoing efforts to assess security at DOI’s law enforcement and security programs. We specifically reviewed
security of the Bureau of Reclamation’s (BOR) numerous dams. Securing these facilities is paramount in
protecting our nation from terrorist attacks. In our report, we praised BOR for making significant progress in
securing these facilities within a relatively short period of time; however, we provided BOR with 12 recom-
mendations that will facilitate its continued development of the law enforcement and security program and,
overall, improve security at the nation’s dams.

     In addition to providing suggestions for change, we believe that in order to address problems affecting
DOI, we need to measure what truly matters. We must look beyond statistics, such as questioned costs, arrests,
and convictions, to measure our accomplishments and look at the impact of our recommendations. We have
also started tailoring our activities to address cross-cutting or DOI-wide issues, focusing on DOI’s most seri-
ous management and program challenges. We do this so both the OIG and DOI will achieve desired short- and
long-term outcomes. We want to produce reports with recommendations that will impact multiple bureaus, not
just one.

    For example, in this Semiannual reporting period, we highlight our evaluation of the risks versus the
benefits of interagency procurement services performed through fee-for-service organizations, affecting
multiple bureaus and offices at DOI. Problems came to light for DOI with the discovery that, in fiscal year
2004, the National Business Center inappropriately acquired interrogation services for the Department of
Defense, using an information technology contract. During our evaluation, we found that DOI and other
organizations providing these services failed to follow procurement laws and regulations, creating significant
consequences for both service providers and recipients.

    We hope the accomplishments we outline in this Semiannual Report demonstrate our commitment to
producing results for the American people.




                                                                               Earl E. Devaney
                                                                               Inspector General



                                Semiannual Report to the Congress - October 1, 2005 - March 31, 2006                                              
                                                                                                                                   Table of Contents



Table of Contents
Statistical Highlights.............................................................................................................................v
OIG Organization Chart......................................................................................................................vii
Mission and Top Management Challenges........................................................................................viii

Significant Audits, Evaluations,
Assessments, and Investigations
Department of the Interior....................................................................................................................1
Bureau of Indian Affairs....................................................................................................................... 7
Bureau of Land Management.............................................................................................................. 11
Minerals Management Service........................................................................................................... 13
National Park Service......................................................................................................................... 15
Office of Insular Affairs...................................................................................................................... 19
U.S. Fish and Wildlife Service............................................................................................................ 21
U.S. Geological Survey....................................................................................................................... 23

Appendixes
1.	    Summary of Audit and Related Activities
       From October 1, 2005, Through March 31, 2006....................................................................... 25
2.	 Reports Issued During the 6-Month Period That Ended
    March 31, 2006........................................................................................................................... 27
3.	 Monetary Impact of Audit Activities From October 1, 2005,
    Through March 31, 2006............................................................................................................ 31
4.	 Audit Resolution Activities......................................................................................................... 33
5.	 Summary of Audit Reports Over 6 Months Old
    Pending Management Decisions at March 31, 2006.................................................................. 37
6.	 Summary of Internal Audit and Evaluation Reports
    Over 6 Months Old Pending Corrective Action at March 31, 2006........................................... 41
7.	 Summary of Insular Area Reports With Open
    Recommendations Over 6 Months Old....................................................................................... 47
8.	 List of Reports Issued on Information Security.......................................................................... 49
9.	 Cross References to the Inspector General Act........................................................................... 51
General Information............................................................................................................................ 53




                                           Semiannual Report to the Congress - October 1, 2005 - March 31, 2006                                        iii
Page Intentionally Left Blank
                                                                                                                                                         Statistical Highlights



INVESTIGATIONS
STATISTICAL HIGHLIGHTS
October 1, 2005, Through March 31, 2006
Investigative Activities
Cases Closed................................................................................................................................. 216
New Cases Opened....................................................................................................................... 218
Hotline Complaints/Inquiries Received.......................................................................................... 72

Criminal Investigative Activities
Indictments/Information................................................................................................................. 35
Convictions..................................................................................................................................... 21
Sentencings..................................................................................................................................... 25
       - Jail........................................................................................................................................................302 months
       - Probation .............................................................................................................................................831 months
       - Community Service................................................................................................................................200 hours
       - Criminal Judgements/Restitutions........................................................................................................$1,304,295
Criminal Matters Referred for Prosecution..................................................................................... 31
Criminal Matters Declined.............................................................................................................. 24

Civil Investigative Activities
Civil Referrals................................................................................................................................... 3
Civil Declinations............................................................................................................................. 1

Administrative Investigative Activities
Removals........................................................................................................................................... 3
Suspensions....................................................................................................................................... 4
Resignations...................................................................................................................................... 4
Retired............................................................................................................................................... 1
Downgrades...................................................................................................................................... 2
Reprimands/Counseling.................................................................................................................. 12
Reassignments/Transfers.................................................................................................................. 3
Restitution......................................................................................................................................... 1
General Policy Actions..................................................................................................................... 5
Bill for Collection Issued.................................................................................................................. 1
Administrative Recoveries..................................................................................................... $17,677
                                                 Semiannual Report to the Congress - October 1, 2005 - March 31, 2006                                                             
 Statistical Highlights




      AUDITS
      STATISTICAL HIGHLIGHTS
      October 1, 2005, Through March 31, 2006
      Audit Activities

      Reports Issued..............................................................................39

      Internal Audits............................................................................................................................ 32
      Contracts and Grant Audits.......................................................................................................... 5
      Single Audit Quality Control Reviews........................................................................................ 2

      Audit Impacts
      Total Monetary Impacts..................................................$4,098,204
      Questioned Costs (includes unsupported costs).............................................................. $591,420
      Recommendations That Funds Be Put to Better Use...................................................... $721,784
      Lost or Potential Additional Revenues........................................................................ $2,785,000

      Internal Audit Recommendations Made.......................................373
      Internal Audit Recommendations Resolved.................................106




vi    Semiannual Report to the Congress - October 1, 2005 - March 31, 2006
                                                                                                                             OIG Organization Chart



                              OIG Organization Chart

                                                     Inspector General
   Office of General Counsel                                                                               Associate Inspector General
                                                      Deputy Inspector General                            for Whistleblower Protection


       Assistant Inspector                                  Assistant Inspector                               Assistant Inspector
                                                                                                           General for Administrative
          General for                                          General for
         Investigations                                           Audits                                         Services and
                                                                                                           Information Management

      Deputy          Principal Deputy                                             Deputy Assistant           Deputy
     Assistant            Assistant                Principal Deputy               Inspector General                               Chief
                         Inspector                     Assistant                                             Assistant         Information
Inspector General                                      Inspector                     for Audits —        Inspector General
 for Investigative      General for                                                 Headquarters             for ASIM            Officer
 Support Division      Investigations              General for Audits
                                                                                      Operations

                                                                                                                               Information
                                Program                                 Central                                                Technology
   Operations                                                                                                                    Division
    Division                    Integrity                               Region                         Financial
                                Division                          Lakewood, CO                          Audits
                                                                 Albuquerque, NM

                                                                                                                                Human
Western Region         Northern Region                Western Region                External           Program                 Resources
 Sacramento, CA          St. Paul, MN                  Sacramento, CA                Audits           Analysis and            Management
  Portland, OR          Rapid City, SD                  Honolulu, HI                Division           Technical                Division
  Honolulu, HI           Billings, MT                  St. Thomas, VI               Reston, VA         Support


             Central Region       Eastern Region                                                                               Financial
             Lakewood, CO          Atlanta, GA                                                               Personnel        Management
            Albuquerque, NM        Herndon, VA                                                                Security         Division
               Tulsa, OK          New York, NY


                                                                                                                               Operations
                                                                                                                                Support
                                                                                                                                Division




                                   Semiannual Report to the Congress - October 1, 2005 - March 31, 2006                                          vii
 Significant Audits,                             Evaluations, Assessments, and                Investigations



       Mission and Top Management
       Challenges for the Office
       of Inspector General
       Mission
           The mission of the OIG is to promote excellence, integrity, and accountability in the programs, operations,
       and management of DOI.

       Responsibilities
           The OIG is responsible for independently and objectively identifying risks and vulnerabilities that directly
       impact, or could impact, DOI’s ability to accomplish its mission. We are required to keep the Secretary and the
       Congress fully and currently informed about problems and deficiencies relating to the administration of DOI
       programs and operations. Effective implementation of this mandate addresses the public’s demand for greater
       accountability and integrity in the administration of government programs and operations, and addresses the
       demand for programs that work better, cost less, and get the results Americans care about most.

       Activities
            The OIG accomplishes its mission by conducting audits, evaluations, assessments, and investigations relat-
       ing to the programs and operations of DOI. Our activities are tied directly to DOI’s major responsibilities and
       are designed to assist DOI in developing solutions for its most serious management and program challenges,
       most notably cross-cutting or DOI-wide issues. These activities are also designed to ensure that we keep
       critical issues prominent, which greatly influences key decisionmakers and increases the likelihood that we
       will achieve desired outcomes and results that benefit the public.



                                  DOI’s Top Management Challenges
            Financial Management

            Information Technology

            Health, Safety, and Emergency Management

            Maintenance of Facilities


            Responsibility to Indians and Insular Areas

            Resource Protection and Restoration

            Revenue Collections

            Procurement, Contracts, and Grants



viii   Semiannual Report to the Congress - October 1, 2005 - March 31, 2006
            Significant          Audits, Evaluations, Assessments, and                                   Investigations



Department of the Interior
BOR makes progress
securing the nation’s dams
     As part of its ongoing efforts
to examine DOI law enforcement
and security programs, the OIG
recently published an assessment
of the Bureau of Reclamation’s
(BOR) Security, Safety and Law
Enforcement Program (SSLE),
with specific attention to the se-
curity of BOR’s numerous dams.
Our assessment revealed that,
within a relatively short period
of time, BOR has made sig-
nificant progress in develop-
                                                                                                         Shasta Dam.
ing a coordinated, compre-
hensive program to secure
its facilities in response to
continued threats to national
security.

     BOR established a
program that methodically
assesses risks at its dams,
strives to ensure implementa-
tion of appropriate counter-
measures, and maintains a        Security at the Grand
high level of accountability     Coulee Dam.
with program funding. How-
ever, we did observe delays
in achieving policy and
oversight needs, and we continue to be concerned
about BOR’s timeliness in security enhancement
implementation at some critical facilities. We also
found that its law enforcement component lacked
leadership and focus in carrying out its mission
and responsibilities. Overall, this has hindered
                                                             Aerial view of Shasta Dam on the Sacramento River,
SSLE program development.                                    above Redding, CA.
     We provided BOR with 12 recommendations. BOR
officials agree that these will facilitate their continued
development of the SSLE program and improve secu-
rity at the nation’s dams.




                                  Semiannual Report to the Congress - October 1, 2005 - March 31, 2006                    
Significant Audits,                              Evaluations, Assessments, and                   Investigations


    DOI contributes to delays in Everglades project
         An OIG audit found that DOI
    has not participated effectively
    in modified waters delivery to
    the Everglades National Park
    project. DOI participation has
    been ineffective because it neither
    developed and communicated a
    comprehensive, unified restora-
    tion strategy, nor clearly defined
    its project consultation role.
    These oversights contributed to
    project delays and cost increases.

        Authorized in 1989, the
    project was intended to improve
    water flows into Everglades
    National Park. Congress directed
    the Army Corps of Engineers
    (Corps) to plan and implement
    the project in consultation with
    DOI. Although the Corps has re-
    sponsibility for this project, DOI
                                       Satellite view of southern Florida. Photo courtesy of NASA and Visible Earth,
    participates in the planning and   (http://visibleearth.nasa.gov/)
    design. Appropriations have been
    channeled through the National
    Park Service (NPS).

        Since its inception, the project has been subject to significant delays and escalating costs. It is currently 8
    years behind schedule and has a projected price tag approaching $400 million – nearly five times its original
    estimate. While DOI has contributed to these delays and cost increases, many other causes outside DOI’s re-
    sponsibility and control also have occurred. For example, public controversies and conflict have led to litiga-
    tion and redesigns of the project. The Miccosukee Tribe, one of many stakeholders for the project, faces the
    need to raise its village because the project will result in higher water levels.

         OIG auditors made six recommendations aimed at ensuring that DOI effectively participates in the modi-
    fied water deliveries to the Everglades National Park project. Effective participation can best be achieved by
    using a project management approach to participation, which includes:

    u	 appointment of a proven project manager,

    u	 a clearly defined DOI-level consultation plan,

    u	 a unified DOI approach to restoration,

    u	 a single line of communication with the Corps,

    u	 improved coordination and communication with stakeholders, and

    u	 improved DOI project monitoring and reporting.          (Read full Report)

    Semiannual Report to the Congress - October 1, 2005 - March 31, 2006
            Significant          Audits, Evaluations, Assessments, and                                     Investigations


Benefits of fee-for-service
activities may not outweigh risks
    Recent audits at DOI and other federal agencies highlighted        FY 2005 Revenue: Fee-for-Service Entities
concerns with interagency procurement services performed
through fee-for-service organizations. Specifically, DOI and                                   Total ($2,983)
other organizations providing these services failed to follow                          3,000
procurement laws and regulations. This created significant
consequences for both service providers and recipients. The                            2,500
problem came to light for DOI with the discovery that, in fiscal
year 2004, the National Business Center (NBC) inappropriately
                                                                                       2,000
acquired interrogation services for the Department of Defense                                     GovWorks ($1,523)




                                                                       $ in Millions
(DOD), using an information technology contract.                                                   NBC ($1,319)
                                                                                       1,500
    OIG evaluation results provided DOI management with
information to determine the benefits versus the risks of fee-                         1,000
for-service organizations. We identified fee-for-service orga-
nizations within DOI that provide administrative and technical                          500
activities for other federal agencies and identified the benefits of                                   TSC ($88)
                                                                                                         USGS ($53)
those activities.
                                                                                          0

     Four DOI entities operate self-sustaining, business-like,
fee-for-service operations. They are GovWorks, NBC, BOR’s Technical Service Center, and the U.S. Geolog-
ical Survey’s (USGS) working capital fund. These organizations provide administrative and technical services
to DOI, as well as to other federal agencies. They reported combined revenues of approximately
$3 billion in fiscal year 2005.

    OIG auditors attempted to identify and quantify the benefits
related to GovWorks and NBC, DOI’s two major fee-for-service
organizations. Managers of these organizations claimed mon-
etary and nonmonetary benefits that include the following:

u	 Use of approximately $22 million in GovWorks income
   to fund DOI initiatives.

u	 Reduction in DOI’s administrative costs due to lower
   indirect costs and achievement of economies of scale.

u	 Development of expertise to assist DOI with
   its procurements.

      Except for the $22 million transferred from GovWorks to
DOI to fund its initiatives, management provided no documen-
tation that allowed auditors to quantify and substantiate the monetary
benefits of fee-for-service operations. Further, auditors were unable to determine that the nonmonetary benefits
cited by GovWorks significantly affected DOI’s operations. In the absence of significant, quantifiable benefits,
it is questionable whether the overall advantages of these activities outweigh the risks brought to management’s
attention through previous and ongoing audits. (Read full Report)



                                  Semiannual Report to the Congress - October 1, 2005 - March 31, 2006                      
Significant Audits,                            Evaluations, Assessments, and                 Investigations


    Opinion on Trust Fund finances remains qualified
         The independent, certified public accounting firm of KPMG LLP (KPMG), under contract with the Office
    of the Special Trustee for American Indians (OST), issued a qualified opinion on fiscal years 2004 and 2005
    Tribal and Other Trust Funds and on Individual Indian Monies Trust Funds financial statements managed by
    OST.

        According to KPMG’s report, inadequacies in certain DOI trust-related systems and processes, disagree-
    ments with trustees on account balances, and legal claims against the federal government made it impracticable
    for auditors to extend auditing procedures to determine the fairness of trust fund balances. The report also
    identified material weaknesses related to OST’s reliance on processing trust transactions at the Bureau of Indian
    Affairs (BIA), as well as unresolved financial reporting issues from prior periods.

       This is the tenth consecutive time that the statements have been audited under OIG oversight and that they
    have received a qualified opinion.

    DOI and bureau financial statements unqualified
    DOI Financial Statements

        The independent, certified public accounting firm of KPMG, under contract with the OIG, rendered an
    unqualified opinion on the consolidated financial statements of DOI for fiscal year 2005. However, KPMG also
    identified 2 material weaknesses and 19 critical but less significant control weaknesses (reportable conditions).
    The material weaknesses are summarized below:

    u	 Controls Over Implementing New Accounting Policies and Procedures
       DOI did not fully develop accounting policies, procedures, and posting models to change its way of record-
       ing receivables and liabilities for the Western Area Power Administration, Bonneville Power Administra-
       tion, and the U.S. Department of the Treasury General Fund by the due date of September 30, 2005, in
       accordance with Office of Management and Budget (OMB) guidance.

    u	 Trust Fund Management Controls
       DOI procedures and controls were insufficient to ensure that Indian Trust Fund activities and balances were
       recorded properly and in a timely manner.

    Bureau Financial Statements

        KPMG also rendered unqualified opinions on the financial statements of NPS, the Bureau of Land Manage-
    ment (BLM), the Office of Surface Mining, Reclamation and Enforcement (OSM), the U.S. Fish and Wildlife
    Service (FWS), the Minerals Management Service (MMS), BIA, BOR, and USGS.

    Scrutiny of single audits identifies deficiencies

         The Single Audit Act Amendments of 1996 require nonfederal entities that expend federal awards equal to
    or greater than $500,000 (in any fiscal year) to obtain a single audit for that year. One responsibility of the OIG
    is to conduct quality control reviews of selected audits made by nonfederal auditors. As part of this responsi-
    bility, we recently completed 115 reviews with various results, including the following:

    u	 One auditor referral was made to the American Institute of Certified Public Accountants and a state board
       of accountancy for substandard work.

    Semiannual Report to the Congress - October 1, 2005 - March 31, 2006
           Significant          Audits, Evaluations, Assessments, and                               Investigations


u	 Seven reviews resulted in auditors reissuing the reports to correct deficiencies.

u	 Eight reviews found that the auditor did not conduct sufficient tests of major programs or that the level of
   testing did not meet federal requirements.

     In addition, the OIG completed two comprehensive Quality Control Reviews. The Quality Control Review
of the Territory of American Samoa audit covered the year ending September 30, 2003, and found that the audi-
tor conducted insufficient tests of one major program. The auditor also failed to identify a certain program as
major and omitted all required testing for that program. In addition, one member of the auditor’s engagement
team did not obtain the required hours of continuing professional education. The Quality Control Review of the
Narragansett Indian Tribe audit covered the year ending December 31, 2002, and found that the auditor report-
ed audit findings inconsistently throughout the audit reporting package.

Security assessments, evaluations reveal weaknesses
     The annual 2005 OIG Federal Information Security Management Act (FISMA) evaluation assessed DOI’s
compliance with FISMA and identified significant weaknesses in its information technology (IT) security pro-
gram. Fiscal year 2005 audits, evaluations, and technical testing of these systems revealed issues with imple-
mentation of various departmental policies and noncompliance with OMB requirements for Certification and
Accreditation (C&A). Additionally, problems in DOI’s overall Plan of Actions & Milestones program, which is
a critical element for managing and prioritizing remediation activities, indicated that DOI management cannot be
assured that IT security risks are properly identified, understood, prioritized, and mitigated.

    Indeed, penetration testing of DOI’s wide area networks and applications revealed poor network and ap-
plication security, inadequate network segmentation, and poor security configurations. These have the potential
to make DOI vulnerable to unauthorized access from internal and external threats. Recently, DOI has issued
several directives and a number of initiatives to correct these issues.




                                Semiannual Report to the Congress - October 1, 2005 - March 31, 2006                 
Page Intentionally Left Blank
           Significant          Audits, Evaluations, Assessments, and                                  Investigations



Bureau of Indian Affairs
Nine individuals indicted
in casino embezzlement
     Susie Long Elk, former treasurer for the Running Antelope District, pleaded guilty in U.S. District Court to
embezzlement and theft for her role in the disappearance of approximately $100,000 from the Standing Rock
Sioux Tribe’s Running Antelope District. Sentencing for Long Elk is pending. Alvina Howard, the district’s
former planning commissioner, was previously sentenced to 5 years of probation and ordered to pay $10,500 in
restitution.

     Additionally, eight former Running Antelope District officials were indicted for their alleged involvement
in the same scheme. Those officials include Allen Flying By, tribal council representative; Leslie Bobtail Bear,
chairman; Virgil Standing Crow, vice chairman; Gayle Henry, secretary; Dale Weasel, planning commissioner;
Jennifer White Eyes, planning commissioner; Leroy White, planning commissioner; and Ralph Taken Alive,
planning commissioner. All eight defendants are currently awaiting trial in the District of South Dakota. As
part of their plea agreements, Long Elk and Howard are expected to testify against these other officials. Addi-
tional individuals are expected to be charged.

Former committee member, his wife,
and his secretary enter guilty pleas
     James Wayne Pedro, Sr., a former Cheyenne-Arapaho Business Committee member, along with his wife,
Lea E. Schantz, and his former secretary, Peggy Bigpond, filed plea agreements, following felony charges
of theft and/or false statements, in the U.S. District Court for the Western District of Oklahoma. They were
charged with embezzling approximately $275,000 in funds from the Lucky Star Casino, owned by the
Cheyenne-Arapaho Tribe in Concho, OK. Sentencing is pending.

Texas judge indicted for false campaign reports
    Texas State District Judge Amado J. Abascal III, 365th District Court, Maverick County, Texas, has been
indicted by a Texas state grand jury in Travis County, Texas, for two counts of tampering with a government
record, a third-degree felony punishable by 2 to 10 years in prison.

    In 2002, Abascal submitted false information on his campaign finance reports to the Texas Ethics Commis-
sion. He reported that he received 15 separate campaign contributions of $1,000 each from 15 different con-
tributors, when, in fact, he received $15,000 in cash from Isidro Garza, a Kickapoo Traditional Tribe of Texas
representative. Garza removed $15,000 from the Kickapoo Lucky Eagle Casino, which he delivered in cash to
Abascal. In addition, Garza provided Abascal with a list of 15 names representing straw contributors. Abascal
then used these names on his campaign finance reports, certifying the donors contributed $1,000 each.

     Abascal’s actions violated three sections of the Texas Election Code. The first limits judicial candidates from
receiving any political contribution exceeding $1,000 from any person or entity. The second limits any candidate
for elected office from receiving more than $100 in cash from any one person. The third prohibits anonymous
contributions to candidates for elected office and requires them to report the actual source of a contribution.

   Abascal’s trial is pending. This matter was investigated as part of a multiagency task force, including this
OIG, investigating public corruption involving the Kickapoo Traditional Tribe of Texas.

                                 Semiannual Report to the Congress - October 1, 2005 - March 31, 2006                   
Significant Audits,                          Evaluations, Assessments, and                 Investigations


    Fugitive returned to Wisconsin
    to face mail fraud sentencing
       On February 9, 2006, Neal Kenneth Allen pleaded guilty to mail fraud for a crime committed in 2003
    when he swindled $286,342 from the Lac du Flambeau Band of Lake Superior Chippewa Indians. Posing as a
    mold testing and abatement expert, he convinced the Lac du Flambeau Tribe to pay him for testing reservation
    homes.

        Allen was indicted and a warrant was issued for his arrest on February 4, 2004. However, he remained at
    large until December 2005 when he was arrested attempting to enter Puerto Rico on a flight from Costa Rica.
    Allen remains in custody, awaiting sentencing.

    Former construction representative
    sentenced to 3 months in jail
        Delphina Begay, a former construction representative with the Western Regional Office, BIA, was sen-
    tenced in Maricopa County Superior Court of Arizona to 3 months in jail and 3 years of probation. The court
    ordered her to pay $3,200 in restitution to BIA and $1,825 in fees. Begay used her government Bank of
    America fleet cards to purchase items for her personal use and receive cash back on legitimate transactions.

        When interviewed, Begay admitted to using her BIA-issued fleet cards to purchase tires, a catalytic con-
    verter, and other automotive parts for her roommate’s car. She also admitted that she purchased gas for both
    her personal car and her roommate’s car. In addition, she acknowledged receiving cash back from her pur-
    chases at Xtreme Carwash. The investigation disclosed that she purchased speakers, struts, a gas filter, a PCV
    valve, and a lift support for a 1994 Dodge Shadow, owned by her roommate.

    Former tribal chairman pleads guilty to mail fraud
        Darrell “Chip” Wadena, a former chairman of the White Earth Band of Chippewa Indians, Minnesota, and
    Guillermo Gonzalez, a used car dealer from Hollywood, FL, were indicted for mail fraud and conspiracy to
    commit mail fraud, respectively. Wadena and Gonzalez were accused of operating an automobile title fraud
    scheme, which involved registering salvaged and unsafe cars through the motor vehicle offices of two northern
    Minnesota Indian reservations.

       Gonzalez and Wadena pleaded guilty to one count of mail fraud. Both men await sentencing, pending
    completion of other aspects of this ongoing criminal investigation. Wadena was chairman of the White Earth
    Band for 20 years, until his conviction in 1996 on 15 federal charges for fraud and theft.




    Semiannual Report to the Congress - October 1, 2005 - March 31, 2006
           Significant          Audits, Evaluations, Assessments, and                              Investigations


Attorney sentenced for role in embezzling tribal funds
    In further developments concerning our investigation of the Skull
Valley Band of Goshute Indians, Duncan Steadman, a Salt Lake
City, Utah attorney, was sentenced in the U.S. District Court for the
District of Utah for his role in assisting certain members of the band
to create documents later used to deceive local bank officials and
gain access to approximately $833,000 of tribal money. Steadman’s
sentence follows his prior guilty plea to a one-count violation of theft
from an Indian tribal organization.

    Steadman’s sentence stems from a lengthy OIG investigation of
former tribal chairman Leon Bear. Bear allegedly was influenced
by Private Fuel Storage, a consortium of Minnesota-based utility        Storage Drums.
companies, to sign contracts providing funds to store 40,000 metric
tons of high-level nuclear waste on the tribe’s reservation 45 miles southwest of downtown Salt Lake City.
Bear and other tribal members were previously convicted and sentenced for embezzling tribal funds.

Tribal court official found guilty of embezzlement
    A federal jury trial held in Minot, ND, resulted in a guilty verdict for Yvette LaFloe
Falcon, former chief clerk of court for the Turtle Mountain Band of the Chippewa
Indians Tribal Court, Belcourt, ND. Falcon was found guilty of a one-count felony
violation of conspiracy to commit offenses against the United States, and a two-count
felony violation of embezzlement from an Indian tribal organization, for her part in a
conspiracy to steal travel funds and create and submit false travel documents. Falcon’s
guilty verdict follows guilty pleas previously entered by three other Turtle Mountain
Band tribal court employees.

    Falcon received a sentence of 18 months of incarceration, 3 years of supervised
release, 100 hours of community service, and a fine for restitution of $11,509. Falcon
has appealed her sentence.

Former casino employees sentenced
for payroll advance scheme
    Former general manager Charlene Azure, former payroll clerk Vienna Gourneau, and former accounts
payable clerk Sylvia Rockwood, employed by the Load Star Casino on the Crow Creek Sioux Tribe, were
sentenced in U.S. District Court, District of South Dakota. Azure was sentenced to 18 months of imprisonment
and 3 years of probation. She was also ordered to make restitution of $83,000. Gourneau was sentenced to 5
years of probation and ordered to pay restitution of $7,349. Rockwood was sentenced to 5 years of probation
and ordered to pay restitution of $7,044.

    The three former casino employees pled guilty to charges related to their roles in a payroll advance scheme.
Azure was also charged for her role in a check-cashing scheme. These activities resulted in the theft of $97,393
from the tribe.

    National Indian Gaming Commission investigators assisted the OIG in this investigation.




                                 Semiannual Report to the Congress - October 1, 2005 - March 31, 2006               
Page Intentionally Left Blank
           Significant          Audits, Evaluations, Assessments, and                              Investigations



Bureau of Land Management
Two men indicted for bribery
of a former BLM employee
    Curtis Slade, the former vice president of Newco Aggregate in Farmington, NM, was indicted by a federal
grand jury in the U.S. District Court for the District of New Mexico for bribing a public official. Since Newco
held a permit to extract sand and gravel from BLM land in northwestern New Mexico, Slade allegedly gave
Ralph Mason, a former geologist with BLM’s Farmington Field Office, bribes and gratuities to overlook permit
requirements and accelerate the permit process.

    Norman Geoff McMahon, the former president of Newco, was also indicted for the same charges. Trial
dates are pending.

BLM field manager sentenced
for embezzlement of public funds
    BLM field manager Robert Beehler pled guilty to one count of embezzlement of
public funds. He was sentenced to 3 years of probation, fined $5,000, and ordered
by the Northern District of California to pay $17,939 in restitution.

     An e-mail referral from NBC first noted suspicious activity on Beehler’s
government charge card and alerted investigators. Ultimately, the investi-
gation determined that Beehler used his government charge card to buy
personal items such as furniture, oil changes, car brakes, a car battery, a set
of tires for his personal vehicle, fine china, books, clothing, food, and music.

    This investigation uncovered weaknesses in the BLM California State office’s
government charge card procedures. As a result, the office has instituted new policy to
ensure better accountability for this program.

Former BLM collection officer
sentenced to prison term
   Michelle Braun, a former collection officer with BLM’s Colorado State Office, received 15 months of
imprisonment and 3 years of supervised release for conspiracy, theft of government funds, and computer fraud.
The court also ordered Braun to pay $140,937 in restitution.

    Braun used her position to issue $165,000 in refund checks from BLM to Lori O’Brien, her long-time high
school friend. During the first years of Braun’s scheme, she altered and falsified paperwork, which enabled the
refund checks to be issued. Eventually, Braun used other employees’ user names and passwords to initiate the
checks.

    After O’Brien told Braun she no longer wanted to be involved in the theft, Braun opened a post office box,
continued to issue checks in O’Brien’s name, and forged the checks payable to her husband.

    O’Brien also was sentenced to 5 years of probation and ordered to pay $103,825 in restitution, as well as a
$3,000 fine for agreeing to receive and negotiate 18 U.S. Treasury checks issued by Braun.

                                 Semiannual Report to the Congress - October 1, 2005 - March 31, 2006               11
Page Intentionally Left Blank
           Significant         Audits, Evaluations, Assessments, and                                Investigations



Minerals Management Service
Deferred prosecution agreement
executed with oil and gas company
    During January 2006, a deferred prosecution agreement was executed between the U.S. Attorney’s Office,
District of North Dakota, and Citation Oil & Gas Corporation in Houston, Texas, as well as its wholly-owned
subsidiary, Citation Crude Marketing, Inc., also in Houston.

   The Deferred Prosecution Agreement was executed to resolve an ongoing criminal investigation into the
conduct of the two companies and their officers, directors, and employees. The investigation concerned altered
documents submitted by the companies during an audit of oil and gas royalties paid on federal leases in North
Dakota. In the agreement, the companies acknowledged that if they breached the terms of the agreement, the
U.S. Attorney’s Office would file criminal charges on the matter investigated.

     MMS is expected to initiate civil and/or administrative proceedings to achieve a financial settlement in
this case.




                                Semiannual Report to the Congress - October 1, 2005 - March 31, 2006                 13
Page Intentionally Left Blank
            Significant         Audits, Evaluations, Assessments, and                                Investigations



National Park Service
Hawaii antique shop owner
pleads guilty to conspiracy
                                         Daniel Warren Taylor, an antique shop owner on the island
                                     of Hawaii, pleaded guilty in U.S. District Court, District of Hawaii, to
                                     conspiring with co-defendant John Andrew Carta to traffick in Native
                                     American cultural items. Taylor and Carta were earlier charged with the
                                     conspiracy offense.

                                          Taylor admitted that from June to August 2004, he and Carta found
                                     artifacts in an ancient burial cave known as Kanupa Cave on the island of
                                     Hawaii. They removed the artifacts in disregard of the Native American
                                     Graves Protection and Repatriation Act (NAGPRA).

                                         The two men removed approximately 157 artifacts from the cave.
Artifacts removed from the          Taylor attempted to sell a necklace pendant to a collector for $40,000. He
Kanupa Cave.                     successfully sold a matching wooden bowl and lid to a collector for $2,083,
                                 and he also posted a wrist ornament for sale on the Internet for $5,600.

     The investigation recovered nearly all of the artifacts stolen by Taylor and Carta. The prosecution of Tay-
lor is the first ever of a NAGPRA violation in the State of Hawaii. Carta is scheduled to enter a plea before a
U.S. Magistrate Judge in April 2006.

    In addition to being the first NAGPRA prosecution in Hawaii, the case revealed critical weaknesses in
DOI’s administration of the NAGPRA program. Investigative findings, as well as recommendations, will be
forwarded to the national NAGPRA coordinator for review and action.

NPS manager pleads guilty to
possession of child pornography
     On March 2, 2006, Lawrence Hartmann, former chief of the
Resource Management and Science Division of the Great Smoky
Mountains National Park in Tennessee and North Carolina, entered
a guilty plea to one count of possession of child pornography. Hart-
mann was sentenced to 8 years in prison and 3 years of supervised
probation. Once out of prison, Hartmann will be required to register
as a sex offender. His position with the park was terminated, effec-
tive August 24, 2005.

    During Hartmann’s interview, he acknowledged using his gov-
ernment computer to visit Web sites containing images of unclothed
young children. He said he had been doing this for a number of
years and storing these images on an external USB hard drive as well as CD-ROMs. He also admitted to taking
inappropriate pictures of his adopted daughter, who was approximately 1 year old at the time.

  A forensic examination of Hartmann’s government laptop computer, external USB hard drive, and CD-
ROMS revealed tens of thousand of pornographic images of children. A total of more than 30,000 pictures of
                                Semiannual Report to the Congress - October 1, 2005 - March 31, 2006                  15
Significant Audits,                             Evaluations, Assessments, and                      Investigations


     suspected child pornography were sent to the National Center for Missing and Exploited Children to be com-
     pared with possible known child victims.

         The National Center for Missing and Exploited Children identified 1,012 images and 1 video of known
     child victims among the material taken from Hartmann’s computer media.

         In addition to the images Hartmann downloaded from the Internet, the forensic examination led to the dis-
     covery of a hidden video camera that Hartmann had installed in the bathroom of his home. Using that camera,
     Hartmann videotaped children who came to visit and converted them into digital videos and images stored on
     his government computer equipment.

     Improved operations to enhance
     visitor experience at volcanoes
          By adopting a more business-like approach
     in its operations, Hawaii Volcanoes National Park
     could significantly improve its commercial and in-
     terpretive services, as well as its maintenance opera-
     tions. Taken together, these changes could improve
     the quality of visitor experiences at the park. Such
     an approach would include the following:

     u	 Updating the park’s General Management Plan
        to include changes that affect visitor enjoyment
        (e.g., how newly acquired acreage
                                                     Hawaii
        will be used).

     u	 Developing detailed plans for day-        Kailua,
        to-day operations of park commer-         Kona          Mauna Kea
        cial and interpretive services and                                            Lava flow at Hawaii Volcanoes
        maintenance operations.                             Mauna Loa
                                                                         Hilo         National Park. Photo courtesy of U.S.
                                                                                      Department of the Interior, U.S. Geological
     u	 Strengthening park controls over                                              Survey. (http://hvo.wr.usgs.gov/kilauea/
        government purchase cards, fee col-                                           update/archive/2005/Jan/main.html)
                                                                          116,000
        lections, and the museum collection                             acre Kahuku
        to reduce the risk of fraud, waste,                              Ranch sale
                                                     Kahuku Ranch
        and abuse in these areas.                    Volcanoes National Park


         OIG found that, to date, lack of a business-like approach has cost the park an estimated $2.7 million from
     commercial air tour operators, $85,000 from commercial bus tour operators, $38,800 in water payments from
     the park concessionaire, and a potential $50,000 in franchise fees over the past 5 years.

         The OIG made 12 recommendations to improve planning and oversight. Implementation of these recom-
     mendations would help the park adopt a more business-like approach, while significantly improving its com-
     mercial, interpretive, and maintenance services. NPS has concurred with, and is beginning to implement, these
     recommendations. (Read full Report)




16   Semiannual Report to the Congress - October 1, 2005 - March 31, 2006
           Significant         Audits, Evaluations, Assessments, and                     Investigations


Former fee-collection program
supervisor guilty of embezzlement
    As reported in the Fall 2005 Semian-
nual Report to Congress, Genevieve Segura,
a former fee collection program supervisor at
the Virgin Islands National Park on St. John,
Virgin Islands, was found guilty of 14 counts of
embezzling and stealing. The theft amounted to
$7,643 taken from the park, beginning approxi-
mately in June 1999 and extending through May
2002.

    On December 14, 2005, Segura was sen-
tenced to 4 years of supervised probation, 6
months of house confinement with electronic
monitoring, payment of a $576 criminal assess-
ment fee, and restitution of $7,743 to the Virgin
Islands National Park.




                                                    Virgin Islands National Park.




                                Semiannual Report to the Congress - October 1, 2005 - March 31, 2006      17
Page Intentionally Left Blank
           Significant           Audits, Evaluations, Assessments, and                                                                                  Investigations



Office of Insular Affairs
Insular Areas liaison reports
progress in audits, investigations
     The OIG Insular Areas field liaison for the Pacific reported progress in several areas that included in-
creased capacity of the Insular Areas Public Auditor Offices to perform audits and investigations pertaining
to the use of Compact and local funds, as well as the review of related accounting systems, controls, and
reporting processes.

    The OIG continued its efforts to improve training opportunities for Public Auditor Offices. As a result,
three auditors and one investigator attended stateside, on-the-job training. These individuals came from the
Public Auditor Offices in Guam and the Federated States of Micronesia. Additional training opportunities for
Public Auditor Office staff are being planned for fiscal year 2006.

    The completion of inspection assignments for several Insular Areas governments also resulted in prepara-
tion of the following documents:

u	 Evaluation Report: Com-
   pact Implementation, Fed-          China




                                                                                                      International Date Line
   erated States of Micronesia               Taiwan
                                                                                                                                  Hawaiian Islands
                                                                                                                                                               N
                                      South
                                      China Philippines                                                                               (U.S.)
                                       Sea          Phillippine      Northern
u	 Advisory Report: Status                             Sea           Mariana
                                                                      IIslands
                                                                        s         Republic of the
                                                                                                                                North Pacific Ocean
   of Closed School Cafeteria           Malaysia                  Guam
                                                                    am            Marshall Islandss
                                                                    Federated States
   and Suspended Student                      Brunel      Palau
                                                             au      of Micronesia

   Meals Program, Chuuk                       Indonesia                              Nauru               Kiribati
                                                              New
   State, Federated States of          Java Sea
                                                  Aratura Sea
                                                               Guinea
                                                                                Solomon                Tokelau
                                                                                                             l u (N
                                                                                                                 (N.Z.)
                                                                                                                    Z)
                                                                   Solomon Sea Islands       Tuvalu
   Micronesia                             Timor Sea
                                                                               Vanualu
                                                                                                      st Amer.
                                                                                         Wallis and Western (U.S.)
                                                                                                                    Samoa
                                                                                                                    Cook Islands
                                                                                                                          sla
                                                                    Coral Sea              Futuna Samoa
                                                                                                      m a
                                                                                                      moa
                                                                                                                    (New Ze
                                                                                                                         Zealand)
                                                                                                                         Z
                                                                              New         (France)
                                                                                                          Niue (N.Z.)
                                                                           Caledonia
u	 Flash Report: Environ-                           Australia
                                                                            (France)          Fiji  Tonga                          French
                                                                                                                                  Polynesia
   mental and Public Health                                                                                                                                 Pitcairn
                                                                                                                                  South Pacific Ocean       (U.K.)
   Concerns, Chuuk State,
   Federated States of                                                            Tasman
                                          South Pacific Ocean
                                                                                    Sea
                                                                                               New
                                                                                              Zealand                                         Pacific Islands
   Micronesia

u	 Memorandum: Compact
   Implementation, Republic
   of Palau

u	 Memorandum: New Capitol Complex Maintenance Issues, Republic of Palau

    In addition, the OIG provided inspection training to Public Auditor Office staff in the Republic of the
Marshall Islands and the Federated States of Micronesia to improve report productivity. Requests from several
Insular Areas governments resulted in training being scheduled on Compact grant management processes, in-
cluding system improvements and reporting, beginning in fiscal year 2006. Also, the Office of Insular Affairs’
Honolulu-based staff has Compact Sector financial oversight training scheduled in April 2006.

   The OIG also continued efforts to resolve long-outstanding internal audit recommendations. As of
March 31, 2006, a total of 213 recommendations contained in 37 reports were processed and closed.


                                 Semiannual Report to the Congress - October 1, 2005 - March 31, 2006                                                                    19
Significant Audits,                           Evaluations, Assessments, and                Investigations


     Former director sentenced for conspiring
     to commit bribery and fraud
        Kerisiano Sili Sataua, former director of the American Samoa Government’s Department of Education,
     was sentenced to 30 months of imprisonment and ordered to pay $61,000 in restitution after pleading guilty to
     conspiring to commit bribery and fraud concerning federal programs.

         Sataua admitted to accepting cash and goods in exchange for fraudulently awarding contracts. He de-
     frauded the U.S. Territory of American Samoa and federal agencies of at least $61,000 when he awarded these
     contracts to his co-conspirators and their companies.

        This investigation was jointly conducted with the FBI and the U.S. Department of Education’s OIG. Sataua
     was prosecuted by the Public Integrity Section of the U.S. Department of Justice, Criminal Division.




20   Semiannual Report to the Congress - October 1, 2005 - March 31, 2006
           Significant         Audits, Evaluations, Assessments, and                                                                                        Investigations



U.S. Fish and Wildlife Service
Audits of state grants identify
$1.2 million in questionable costs
    Audits of grants that the FWS awarded to three states revealed a potential savings of $1.2 million. The
grants finance up to 75 percent of state-sponsored projects, such as developing sites for boating access and
acquiring and managing natural habitats.

    A summary of the significant issues disclosed in the audits follows. FWS is working with the states to
resolve these matters.

u	 The State of West Virginia did not report proceeds               Washington

   of at least $495,770 from the disposal of real prop-                                    Montana            North
                                                                                                             Dakota
                                                                                                                         Minnesota                                              Maine
                                                                                                                                       Michigan                             VT
   erty acquired with federal assistance funds. Also, it          Oregon
                                                                                 Idaho                    South Dakota
                                                                                                                                Wisconsin                              New
                                                                                                                                                                       York
                                                                                                                                                                              NH
                                                                                                                                                                               Mass
                                                                                                                                                                                 RI
   did not report program income of at least $137,214                                         Wyoming

                                                                                                             Nebraska       Iowa
                                                                                                                                                 Michigan
                                                                                                                                                      Pennsylvania
                                                                                                                                                                             Conn

                                                                        Nevada                                                                                       New Jersey
   and used federal assistance lands for unauthorized                               Utah                                             Illinois
                                                                                                                                                Indiana
                                                                                                                                                 Ohio
                                                                                                                                                    West
                                                                                                                                                   Virginia
                                                                                                                                                            Maryland
                                                                                                                                                                     Delaware

                                                                                               Colorado         Kansas
   purposes. The audit also found that West Virginia             California                                               Missouri        Kentucky
                                                                                                                                                          Virginia
                                                                                                                                                           North
                                                                                                                                                         Carolina
   claimed costs of $37,443 contributed to the state’s                           Arizona

                                                                                            New Mexico
                                                                                                                 Oklahoma
                                                                                                                          Arkansas Tennessee            South
                                                                                                                                                       Carolina
                                                                                                                                Mississippi
   retirement system for temporary employees not en-                                                           Texas
                                                                                                                                        Alabama
                                                                                                                                                Georgia



   titled to such benefits.                                                                                                 Louisiana

                                                                                                                                                             Florida




u	 The State of Montana’s personal property and fixed
   assets inventory listings were neither accurate nor
   complete. Also, the state’s drawdown procedures need to be revised.

u	 The State of Illinois claimed $553,977 of questionable costs that consisted of unauthorized activities and
   unsupported charges for labor and in-kind services. Also, the audit identified issues concerning state use of
   license revenues, the state’s assent legislation, and the ownership and use of federal assistance land.

Individual charged in misuse
of purchase and credit card
    Aaron M. Smith, a private citizen in Philadelphia, PA, was arrested as part of an international fraud in-
vestigation conducted and coordinated by the OIG’s Central Region Investigations office. The investigation
involved the widespread misuse of Bank of America MasterCard numbers fraudulently obtained from DOI’s
purchase and credit card program.

     Smith was charged in a Pennsylvania State Court with five felony counts of theft, forgery, and access
device fraud, and 40 additional local charges, after he made approximately $9,000 in fraudulent transactions
with credit card numbers assigned to NPS. Smith’s fraudulent credit card transactions covered the purchase of
Dell computers, payment of his Comcast cable bill, and payment for food from several local restaurants. Based
on leads developed by OIG special agents, a search warrant was executed by NPS special agents and local law
enforcement officials at Smith’s residence in Philadelphia. The search failed to locate any of the Dell comput-
ers. However, investigators later determined that Smith sold the computers at a local pawn shop.

    Although the OIG first learned of this potential crime through information provided by FWS, the crime
actually transcended that agency to impact many other DOI bureaus.

                                Semiannual Report to the Congress - October 1, 2005 - March 31, 2006                                                                                    21
Significant Audits,                           Evaluations, Assessments, and   Investigations


     Former FWS employee sentenced
     for possession of child pornography
         Gary Heet, a former FWS employee first mentioned in the Fall
     2005 Semiannual Report, was sentenced to 21 months in prison,
     followed by 2 years of supervised release, and a $5,000 fine. He
     was sentenced for possession of child pornography.

          In 2003, his supervisor at the Seney National Wildlife Refuge
     in Seney, MI, discovered a computer virus with a sexually sugges-
     tive title on Heet’s computer. An OIG computer forensics exami-
     nation of the hard drive identified more than 2,000 pornographic
     images, a substantial number of which were of children. Based on
     this information, the OIG and the FBI obtained a search warrant
     for Heet’s residence, where additional evidence was seized. Heet,
     who retired due to medical disabilities, began his prison sentence
     on January 2, 2006.




22   Semiannual Report to the Congress - October 1, 2005 - March 31, 2006
           Significant         Audits, Evaluations, Assessments, and                               Investigations



U.S. Geological Survey
Employee indicted for misusing
fleet and purchase cards
    Steven Ray Norton, a former USGS budget analyst, was indicted by a U.S. District Court federal grand
jury in Colorado on 24 felony counts of embezzlement, theft, and conversion of DOI credit cards. Norton used
four USGS-issued Bank of America credit cards to purchase $38,395 worth of items for personal use and then
receive cash and store credit on what appeared to be legitimate purchases. Norton attempted to hide his activity
by manipulating and transferring entries on USGS accounts entrusted to his oversight.

    Norton has resigned from his employment with the USGS as a result of the investigation.




                                Semiannual Report to the Congress - October 1, 2005 - March 31, 2006                23
Page Intentionally Left Blank
                                                                                            Appendix One


Summary of Audit and Related Activities
From October 1, 2005, Through March 31, 2006



                                                   Audits Performed by:
	                                     OIG Staff	                  OIG Single Audit Staff
	                        Internal, Grant, and Contract Audits	   Quality Control Reviews	      Total

    Reports Issued To

    Department/Office
    of the Secretary	                      9	                               2	                  11

    Fish and Wildlife
    and Parks	                           10	                                0	                  10

    Indian Affairs	                        3	                               0	                   3

    Insular Affairs	                       2	                               0	                   2

    Land and Minerals
    Management	                            7	                               0	                   7

    Water and Science	                     5	                               0	                   5

    Other Federal
    Agencies	                              1	                               0	                   1

    Total Reports
    Issued	                              37	                                2	                 39




                                 Semiannual Report to the Congress - October 1, 2005 - March 31, 2006   25
Page Intentionally Left Blank
                                                                                                      Appendix Two


Reports Issued During the 6-Month
Period That Ended March 31, 2006
This listing includes all internal reports (internal audits, advisory reports, assessments, and evaluations), con-
tract and grant audits, and single audit quality assurance review reports issued during the 6-month period that
ended March 31, 2006. It provides report number, title, issue date, and monetary amounts identified in each
report (* Funds To Be Put To Better Use, ** Questioned Cost, *** Unsupported Cost, and **** Lost or Potential
Additional Revenues).

Internal Reports
Bureau of Indian Affairs

X-IN-BIA-0006-2005	              Independent Auditors’ Report on the Bureau of Indian Affairs’ Financial
                                 Statements for Fiscal Years 2005 and 2004 (12/20/2005)

X-IN-BIA-0010-2006	              Management Letter Concerning Issues Identified During the Audit of the Bu-
                                 reau of Indian Affairs Financial Statements for Fiscal Years 2005 and
                                 2004 (03/03/2006)

Bureau of Land Management

C-ST-BLM-0001-2006	              Status Review of the Five Recommendations in Our March 2005 Flash Report
                                 No. C-IN-BLM-0013-2005, Titled “Public Safety Issues at the Saginaw Hill
                                 Property, Bureau of Land Management” (01/30/2006)	

X-IN-BLM-0012-2005	              Independent Auditors’ Report on the Bureau of Land Management’s Financial
                                 Statements for Fiscal Years 2005 and 2004 (01/31/2006)

X-IN-BLM-0005-2006	              Management Letter Concerning Issues Identified During the Audit of the
                                 Bureau of Land Management’s Financial Statements for Fiscal Years 2005 and
                                 2004 (02/7/2006)

Bureau of Reclamation

X-IN-BOR-0013-2005	              Independent Auditors’ Report on the Bureau of Reclamation’s Financial State-
                                 ments for Fiscal Years 2005 and 2004 (12/28/2005)

X-IN-BOR-0007-2006	              Management Letter Concerning Issues Identified During the Audit of the
                                 Bureau of Reclamation’s Financial Statements for Fiscal Years 2005 and 2004
                                 (02/10/2006)

B-VS-BOR-0004-2006 	             Verification Review on Recommendations Considered Implemented From Our
                                 September 2004 Audit Report Titled “Bureau of Reclamation, Denver Office,
                                 Contract Administration” (03/07/2006)

U.S. Geological Survey

X-IN-GSV-0008-2005	              Independent Auditors’ Report on the U.S. Geological Survey’s Financial State-
                                 ments for Fiscal Years 2005 and 2004 (11/23/2005)

                                Semiannual Report to the Congress - October 1, 2005 - March 31, 2006                 27
 Appendix Two


X-IN-GSV-0011-2006	         Management Letter Concerning Issues Identified During the Audit of the U.S.
                            Geological Survey’s Financial Statements for Fiscal Years 2005 and 2004
                            (01/31/2006)	

Minerals Management Service

X-IN-MMS-0010-2005	         Independent Auditors’ Report on the Minerals Management Service’s Finan-
                            cial Statements for Fiscal Years 2005 and 2004 (12/08/2005)

X-IN-MMS-0006-2006	         Management Letter Concerning Issues Identified During the Audit of the Min-
                            erals Management Service’s Financial Statements for Fiscal Years 2005 and
                            2004 (02/10/2006)

Multi-Office

X-IN-MOA-0019-2005	         Independent Accountants’ Report on the Application of Agreed-Upon Proce-
                            dures for the Office of Personnel Management (10/05/2005)

X-IN-MOA-0011-2005	         Independent Auditors’ Report on the Department of the Interior’s Annual Re-
                            port on Performance and Accountability for Fiscal Year 2005 (11/15/2005)

X-IN-MOA-0002-2006	         Independent Auditors’ Report on the Department of the Interior’s Special Pur-
                            pose Financial Statements for Fiscal Years 2005 and 2004 (11/18/2005)

C-ST-MOA-0009-2005	         Status Review on Recommendation 4 From our March 2000 Audit Report No.
                            00-I-300 Titled “Supporting Documentation for Operators Participating in the
                            Stripper Oil Well Property Royalty Rate Reduction Program, Bureau of Land
                            Management and Minerals Management Service” (11/25/2005)

X-IN-MOA-0013-2006	         Independent Accountants’ Report on Applying Agreed-Upon Procedures for
                            Intragovernmental Activity and Balances for Fiscal Year 2005 (12/02/2005)

X-IN-MOA-0009-2006	         Management Letter Concerning Issues Identified During the Audit of the De-
                            partment of the Interior’s Financial Statements for Fiscal Years 2005 and 2004
                            (02/28/2006)

C-IN-MOA-0006-2005	         Modified Water Deliveries to Everglades National Park (03/31/2006)

C-EV-MOA-0016-2005	         Fee-for Service-Organizations, Department of the Interior (03/31/2006)

National Park Service

B-EV-NPS-0012-2005	         District of Columbia Water and Sewer Authority – July 1, 2005, Through
                            September 30, 2005 (10/31/2005)

X-IN-NPS-0009-2005	         Independent Auditors’ Report on the National Park Service’s Financial State-
                            ments for Fiscal Years 2005 and 2004 (12/21/2005)

X-IN-NPS-0008-2006	         Management Letter Concerning Issues Identified During the Audit of the
                            National Park Service’s Financial Statements for Fiscal Years 2005 and 2004
                            (01/31/2006)


28   Semiannual Report to the Congress - October 1, 2005 - March 31, 2006
                                                                                          Appendix Two


B-EV-NPS-0001-2006 	   District of Columbia Water and Sewer Authority – October 1, 2005, Through
                       December 31, 2005 (02/03/2006)

P-IN-NPS-0074-2004	    Hawaii Volcanoes National Park: Improved Operations Should Enhance Stew-
                       ardship and Visitor Experience (03/31/2006) *$88,800 ****$2,785,000

Office of Surface Mining Reclamation and Enforcement

X-IN-OSM-0004-2006	    Independent Auditors’ Report on the Office of Surface Mining Reclamation
                       and Enforcement’s Balance Sheets as of September 30, 2005 and 2004, and
                       the Related Financial Statements for the Year Ended September 30, 2004
                       (12/30/2005)

X-IN-OSM-0004-2006	    Financial Statements Management Letter Concerning Issues Identified During
                       the Audit of the Office of Surface Mining’s Financial Statements for Fiscal
                       Years 2005 and 2004 (02/17/2006)

Office of Special Trustee for American Indians

Q-IN-OST-0002-2005	    Independent Auditors’ Report on the Tribal and Other Trust Funds and Indi-
                       vidual Indian Monies Trust Funds Financial Statements for Fiscal Years 2005
                       and 2004 Managed by the Office of the Special Trustee for American Indians
                       (11/22/2005)

U.S. Fish and Wildlife Service

X-IN-FWS-0015-2005	    Independent Auditors’ Report on the U.S. Fish and Wildlife Service’s Finan-
                       cial Statements for Fiscal Years 2005 and 2004 (01/30/2006)

X-IN-FWS-0003-2006	    Management Letter Concerning Issues Identified During the Audit of the
                       U.S. Fish and Wildlife Service’s Financial Statements for Fiscal Years 2005
                       and 2004 (02/27/2006)

U.S. Virgin Islands

V-EV-VIS-0001-2006	    Supplemental Review of Insurance and Pension Costs Provided by U.S.
                       Virgin Islands Watch and Jewelry Producers for Calendar Years 2003 and
                       2004 (03/09/2006)

V-IN-VIS-0002-2006	    Watch Quota and Jewelry Quota Data for Calendar Years 2005 Submitted by
                       Firms Located in the U.S. Virgin Islands (03/31/2006)

Contract and Grant Audits
National Park Service

K-CX-NPS-0017-2005 	   Cost Proposal Submitted by Bunting Graphics, Inc., Under the National
                       Park Service Service-wide Sign Management Program Solicitation No.
                       N1105050001 (03/31/2006)



                       Semiannual Report to the Congress - October 1, 2005 - March 31, 2006          29
 Appendix Two


U.S. Fish and Wildlife Service

R-GR-FWS-0007-2004	              Final Audit Report on the U.S. Fish and Wildlife Service Federal Assistance
                                 Grants Administered by the State of Montana, Department of Fish, Wildlife
                                 and Parks, From July 1, 2001, Through June 30, 2003 (11/21/2005)

R-GR-FWS-0005-2005 	             U.S. Fish and Wildlife Service Federal Assistance Grants Administered by
                                 the State of West Virginia, Division of Natural Resources, From July 1, 2002,
                                 Through June 30, 2004 (02/06/2006) *$632,984 **$37,443

R-GR-FWS-0004-2005	              Final Audit Report on the U.S. Fish and Wildlife Service Federal
                                 Assistance Grants Administered by the State of Illinois, Department
                                 of Natural Resources, From July 1, 2002, Through June 30, 2004 (03/31/06)
                                 **$93,698 ***$460,279

Single Audit Quality Control Reviews
B-QC-MOA-0011-2005	              Narragansett Indian Tribe Special Revenue Funds for the Year Ended
                                 December 31, 2002 (10/28/2005)

B-QC-MOA-0009-2005	              Territory of American Samoa for the Fiscal Year Ended September 30, 2003
                                 (2/7/2006)

Other Reports
W-RR-OIG-0005-2005 1	            Audit of Expenditures by the California Secretary of State’s Office Under the
                                 Help America Vote Act of 2002 (10/11/2006)




     1
      This report was issued to the U.S. Election Assistance Commission. The Commission has the responsibility for all
     actions on this report.



30   Semiannual Report to the Congress - October 1, 2005 - March 31, 2006
                                                                                           Appendix Three


Monetary Impact of Audit Activities
From October 1, 2005, Through March 31, 2006


	    Activity	      Questioned Costs**	   Funds to be Put To Better Use	    Revenues	       Total


Bureau of
Indian Affairs	             0	                           0	                    0	            0
Bureau of Land
Management	                 0	                           0	                    0	            0
Bureau of
Reclamation	                0	                           0	                    0	            0
U.S. Fish and
Wildlife Service	       $591,420	                   $632,984	                  0	        $1,224,404
Insular Areas*	             0	                           0	                    0	            0
Multi-Office	               0	                           0	                    0	            0
Office of the 	
Secretary	                  0	                           0	                    0	            0
National Park
Service*	                   0	                      $88,800	               $2,785,000	   $2,873,800
Total	                 $591,420	                   $721,784	               $2,785,000	   $4,098,204


* Includes monetary impact of nonfederal funds.
** Unsupported costs are included in questioned costs.




                                 Semiannual Report to the Congress - October 1, 2005 - March 31, 2006   31
Page Intentionally Left Blank
                                                                                                            Appendix Four


Audit Resolution Activities
Table I: Inspector General Audit
Reports With Questioned Costs*

	     	                                          Number of Reports	            Questioned Costs	   Unsupported Costs


A.	   For which no management
	     decision had been made by the
	     commencement of the reporting
	     period.1	                                             40	                    $17,220,153	       $4,232,952

B.	 Which were issued during the
	 reporting period.	                                         2	                      $591,420	         $460,279

		        Total (A+B)	                                      42	                    $17,811,573	       $4,693,231

C.	 For which a management decision
	 was made during the reporting
	 period. 	                                                  5	                     $2,062,644	        $508,982

		        (i) Dollar value of
		        recommendations that
		        were agreed to by
		        management. 	                                      4	                     $1,790,996	        $237,334

		        (ii) Dollar value of
		        recommendations that
		        were not agreed to by
		        management. 	                                      1	                      $271,648	         $271,648

D.	 For which no management
	 decision had been made by the
	 end of the reporting period. 	                            37	                    $15,748,929	       $4,184,249

E. 	 For which no management
	 decision was made within
	 6 months of issuance. 	                                   35	                    $15,157,509	       $3,723,970




* Unsupported costs are included in questioned costs.
1
  The number of reports has been increased by one due to corrective adjustments.




                                      Semiannual Report to the Congress - October 1, 2005 - March 31, 2006             33
    Appendix Four


Audit Resolution Activities
Table II: Inspector General Audit Reports With
Recommendations That Funds Be Put To Better Use

	     	                                     Number of Reports	                   Dollar Value


A.	   For which no management
	     decision had been made by the
	     commencement of the reporting
	     period.	                                      15	                          $60,848,715

B.	 Which were issued during the
	 reporting period. 	                                2	                            $721,784

		          Total (A+B)	                            17	                          $61,570,499

C.	 For which a management decision
	 was made during the reporting period. 	            5	                          $40,024,051

	 (i)	 Dollar value of recommendations
		 that were agreed to by management. 	              5	                          $40,024,051

	 (ii)	 Dollar value of recommendations
		 that were not agreed to by management. 	          0	                                  $0

D.	 For which no management decision
	 had been made by the end of the
	 reporting period.2 	                              12	                          $21,546,448

E.	 For which no management decision
	 was made within 6 months of issuance. 	           10	                          $20,824,664




34        Semiannual Report to the Congress - October 1, 2005 - March 31, 2006
                                                                                               Appendix Four


Audit Resolution Activities
Table III: Inspector General Audit Reports
With Lost or Potential Additional Revenues

	     	                                      Number of Reports	                 Dollar Value


A.	   For which no management
	     decision had been made by
	     the commencement of the
	     reporting period.	                              8	                       $217,365,640

B.	 Which were issued during the
	 reporting period. 	                                 1	                         $2,785,000

		        Total (A+B)	                                9	                       $220,123,640

C.	 For which a management decision
	 was made during the reporting period. 	             2	                        $43,840,000

	 (i)	 Dollar value of recommendations
		 that were agreed to by management. 	               1	                        $43,200,000

	 (ii)	 Dollar value of recommendations
		 that were not agreed to by management. 	           1	                           640,000

D.	 For which no management decision
	 had been made by the end of the
	 reporting period. 	                                 7	                       $176,283,640

E.	 For which no management decision
	 was made within 6 months of issuance. 	             6	                       $173,525,640




                                  Semiannual Report to the Congress - October 1, 2005 - March 31, 2006    35
Page Intentionally Left Blank
                                                                                                  Appendix Five

Summary of Audit Reports Over 6 Months
Old Pending Management Decisions at
March 31, 2006
This listing includes a summary of internal, contract (except pre-awards), and grant audit reports that were over
6 months old on March 31, 2006, and still pending a management decision. It provides report number, title,
issue date, number of unresolved recommendations, and unresolved amount of monetary benefits identified in
the audit report.

Internal Audit
Bureau of Indian Affairs

W-FL-BIA-0047-2002	              School Construction Program, Bureau of Indian Affairs (02/24/2004);
                                 2 Recommendations; $2,100,000 Unresolved

E-EV-BIA-0063-2003	              Process Used To Assess Applications to Take Land Into Trust for Gaming
                                 Purposes (09/01/2005); 1 Recommendation

C-IN-BIA-0015-2004	              Bureau of Indian Affairs Use of Facilities Improvement and Repair Funds
                                 (08/29/2005); 1 Recommendation; $10,200,000 Unresolved

Bureau of Land Management

C-IN-BLM-0062-2004	              Independent Auditors’ Report on the Bureau of Land Management’s Financial
                                 Statements for Fiscal Years 2004 and 2003 (01/12/2005); 5 Recommendations

W-IN-BLM-0009-2003	              Audit of Oil and Gas Permitting Process, Bureau of Land Management
                                 (02/13/04); 1 Recommendation

Multi-Office Audits

A-EV-MOA-0006-2004	              Annual Evaluation of the Information Security Program of the Department of
                                 the Interior (10/06/2004); 2 Recommendations

A-IN-MOA-0004-2004	              Department of the Interior’s Use of Wireless Technologies (12/6/2004);
                                 6 Recommendations

E-IN-MOA-0008-2004	              Department of the Interior Workers’ Compensation Program (05/9/2005);
                                 2 Recommendations

X-IN-MOA-0004-2005	              Management Issues Identified During the Audit of the Department of the
                                 Interior’s Fiscal Years 2004 and 2003 Financial Statements (03/14/2005);
                                 1 Recommendation

X-IN-MOA-0027-2004	              U.S. Department of the Interior, Interior Trust Funds Management
                                 (06/06/2005); 7 Recommendations

A-EV-MOA-0001-2005	              The Department of the Interior’s Process To Manage Information Technology
                                 Security Weaknesses (09/23/2005); 5 Recommendations

                             Semiannual Report to the Congress - October 1, 2005 - March 31, 2006                   37
 Appendix Five


National Park Service

A-IN-NPS-0074-2003	         Improvements Needed In Managing Information Technology System Security,
                            National Park Service (03/29/2004); 1 Recommendation

C-IN-NPS-0001-2005	         Public Safety Concerns at Floyd Bennett Field, Gateway National Recreational
                            Area (11/18/2004); 2 Recommendations

E-IN-NPS-0007-2005	         Management Issues Identified During the Audit of the National
                            Park Service’s Fiscal Years 2004 and 2003 Financial Statements (01/05/2005);
                            4 Recommendations

E-IN-NPS-0056-2004	         Independent Auditors’ Report on the National Park Service’s
                            Financial Statements for Fiscal Years 2004 and 2003 (12/10/2004);
                            2 Recommendations

Office of Surface Mining Reclamation and Enforcement

C-IN-OSM-0005-2005	         Management Issues Identified During the Audit of the Office of Surface
                            Mining Reclamation and Enforcement’s Fiscal Years 2004 and 2003
                            Financial Statements (02/11/2005); 1 Recommendation

U.S. Fish and Wildlife Service

C-IN-FWS-0064-2004	         Independent Auditors’ Report on the U.S. Fish and Wildlife Service’s
                            Financial Statements for Fiscal Years 2004 and 2003 (02/14/2005);
                            3 Recommendations

X-IN-FWS-0017-2005	         Audit of U.S. Fish and Wildlife Service Administrative Costs to Support
                            Wildlife and Sport Fish (08/29/2005); 2 Recommendations

Contract and Grants
Bureau of Indian Affairs

1994-E-0784	                Audit of Costs Incurred by Diversified Business Technologies Corporation
                            Under Bureau of Indian Affairs Contract No. CBM000047 (06/10/1994);
                            1 Recommendation; $825,170 Unresolved

1994-E-0919	                Audit of Costs Incurred by Diversified Business Technologies Corporation
                            Under Contract No. CBM000174 (06/30/1994); 1 Recommendation;
                            $247,414 Unresolved

Bureau of Land Management

C-CX-BLM-0044-2003	         Costs Claimed by Sletten Construction of Wyoming, Inc., Under Contract No.
                            NDC000037 to Build the National Historic Trails Interpretive Center, Bureau
                            of Land Management (05/19/2004); 1 Recommendation; $256,526 Unresolved




38   Semiannual Report to the Congress - October 1, 2005 - March 31, 2006
                                                                                        Appendix Five


National Park Service

2000-E-0289	          JCM Control Systems, Inc., Costs Billed From January 1, 1997, Through
                      July 16, 1999, Under National Park Service Contract No. 443CX300094906
                      (03/24/2000); 1 Recommendation; $83,125 Unresolved

2000-E-0607	          Costs Billed By Harrison & Palmer, Inc., From April 1, 1996, Through June
                      23, 1999, Under National Park Service Contract No. 143CX300094906
                      (08/8/2000); 1 Recommendation; $52,703 Unresolved

2000-E-0706	          Audit of Costs Billed by Southern Insulation, Inc., From November 21,
                      1994, Through June 1, 1999, Under National Park Service Contract Number
                      1443CX300094906 (09/29/2000); 1 Recommendation; $86,262 Unresolved

2001-E-0035	          Audit of Costs Billed by Callas Contractors, Inc., From January 1,
                      1997 Through June 1, 1999, Under National Park Service Contract No.
                      1443CX300094906 (11/07/2000); 1 Recommendation; $16,425 Unresolved

2001-E-0036	          Audit of Costs Billed by Capitol Mechanical Contractors, Inc., From
                      January 1, 1997, Through June 1, 1999, Under National Park Service Contract
                      No. 1443CX300094906 (11/7/2000); 1 Recommendation; $98,194 Unresolved

2001-E-0244	          Audit of Costs Billed by E.M.S. Consultants, Inc., From May 1, 1996,
                      Through June 1, 1999, Under National Park Service Contract Number
                      1443CX300094906 (02/27/2001); 1 Recommendation; $327,330 Unresolved

2001-E-0336	          Audit of Costs Billed By JCM Control Systems, Inc., From January 1,
                      1994, Through July 16, 1999, Under National Park Service Contract No.
                      1443CX300094906 (04/23/2001); 1 Recommendation; $109,865

2002-E-0002	          Audit of Amounts Billed by the Community Central Energy Corporation
                      From October 1, 1993, Through September 30, 2000, Under National Park
                      Service Contract No. CX-4000-0-0023 (12/19/2001); 1 Recommendation;
                      $779,274 Unresolved

C-CX-NPS-0027-2004	   Costs Claimed by Remediation Constructors, Inc., to Construct an Access
                      Road and Parking Area at Sequoia Kings National Park in California,
                      Contract No. 1443C8000010903 (07/8/2004); 2 Recommendations;
                      $348,792 Unresolved

C-CX-NPS-0039-2004	   Costs Claimed by The Ryan Company, Inc., Under the Horizontal Directional
                      Drilling Portion of National Park Service Contract No. 1443C4500000906
                      (02/9/2005); 1 Recommendation; $3,427,887 Unresolved

U.S. Fish and Wildlife Service

R-GR-FWS-0029-2003	   U.S. Fish and Wildlife Service Federal Assistance Grants Administered by
                      the State of Washington, Department of Fish and Wildlife, From July 1, 2000,
                      Through June 30, 2002 (03/21/2004); 1 Recommendation




                      Semiannual Report to the Congress - October 1, 2005 - March 31, 2006           39
 Appendix Five


R-GR-FWS-0025-2003	         U.S. Fish and Wildlife Service Federal Assistance Grants Administered by the
                            State of New York, Department of Environmental Conservation, Division of
                            Fish, Wildlife and Marine Resources, From April 1, 2000, Through March 31,
                            2002 (05/06/2004); 5 Recommendations; $980,616 Unresolved

R-GR-FWS-0010-2004	         U.S. Fish and Wildlife Service Federal Assistance Grants Administered by the
                            State of New Jersey, Department of Environmental Protection, Division of
                            Fish and Wildlife, From July 1, 2001, Through June 30, 2003 (03/08/2005);
                            9 Recommendations

R-GR-FWS-0008-2004	         U.S. Fish and Wildlife Service Federal Assistance Grants Administered by the
                            State of Idaho, Department of Fish and Game, From July 1, 2001, Through
                            June 30, 2003 (09/30/2005); $156,189 Unresolved

R-GR-FWS-0007-2005	         U.S. Fish and Wildlife Service Federal Assistance Grants Administered by the
                            Commonwealth of Massachusetts, Executive Office of Environmental Af-
                            fairs, Department of Fish and Game, Division of Fisheries and Wildlife, From
                            July 1, 2002, Through June 30, 2004 (09/30/2005); 14 Recommendations;
                            $159,815 Unresolved




40   Semiannual Report to the Congress - October 1, 2005 - March 31, 2006
                                                                                              Appendix Six


Summary of Internal Audit and Evaluation Reports
Over 6 Months Old Pending Corrective Action at
March 31, 2006
This is a listing of internal audit and evaluation reports over 6 months old with management decisions
for which corrective action has not been completed. It provides report number, title, issue date, and
the number of recommendations without final corrective action. These audits and evaluations con-
tinue to be monitored by the Focus Leader for Management Control and Audit Follow-up, Assistant
Secretary, Policy, Management and Budget, for completion of corrective action.

Bureau of Indian Affairs

2003-I-0055	                  Evaluation of the Bureau of Indian Affairs’ Process to Approve Tribal Gaming
                              Revenue Allocation Plans (06/11/2003); 3 Recommendations

E-IN-BIA-0059-2004	           Independent Auditors’ Report on the Bureau of Indian Affairs’ Financial State-
                              ments for Fiscal Years 2004 and 2003 (12/29/2004); 21 Recommendations

E-IN-BIA-0004-2005	           Management Issues Identified During the Audit of the Bureau of Indian Af-
                              fairs’ Fiscal Years 2004 and 2003 Financial Statements (02/28/2005);
                              36 Recommendations

C-IN-BIA-0015-2004	           Bureau of Indian Affairs Use of Facilities Improvement and Repair Funds	
                              (08/29/2005); 2 Recommendations

E-EV-BIA-0063-2003	           Process Used To Assess Applications to Take Land Into Trust for Gaming
                              Purposes (09/1/2005); 2 Recommendations

Bureau of Land Management

1992-I-0828	                  Onshore Geophysical Exploration Fees (05/26/1992); 2 Recommendations

1995-I-0379	                  Follow-up of Recommendations Relating to Bureau of Land Management
                              User Charges for Mineral Related Document Processing (01/23/1995);
                              2 Recommendations

1997-I-1300	                  Issuance of Mineral Patents, Bureau of Land Management and the Office of
                              the Solicitor (09/30/1997); 1 Recommendation

1999-I-0808	                  Cultural Resource Management, Bureau of Land Management (09/30/1997);
                              2 Recommendations

C-IN-BLM-0076-2003	           Independent Auditors’ Report on the Bureau of Land Management’s
                              Financial Statements for Fiscal Years 2003 and 2002 (12/10/2003);
                              11 Recommendations

C-IN-BLM-0021-2004	           Management Issues Identified During the Audit of the Bureau of Land
                              Management’s Fiscal Year 2002 Financial Statements (12/31/2003);
                              2 Recommendations


                          Semiannual Report to the Congress - October 1, 2005 - March 31, 2006                 41
 Appendix Six


W-IN-BLM-0009-2003	         Audit of Oil and Gas Permitting Process, Bureau of Land Management
                            (02/13/2004); 3 Recommendations

C-IN-BLM-0062-2004	         Independent Auditors’ Report on the Bureau of Land Management’s Financial
                            Statements for Fiscal Years 2004 and 2003 (01/12/2005); 5 Recommendations

C-IN-BLM-0002-2005	         Management Issues Identified During the Audit of the Bureau of Land Man-
                            agement’s Fiscal Years 2004 and 2003 Financial Statements (02/10/2005);
                            6 Recommendations

C-IN-BLM-0013-2005	         Public Safety Issues at the Saginaw Hill Property Bureau of Land Manage-
                            ment (03/15/2005); 2 Recommendations

Minerals Management Service

E-IN-MMS-0066-2003	         Independent Auditors’ Report on the Minerals Management Service’s
                            Financial Statements for Fiscal Years 2003 and 2002 (12/09/2003);
                            5 Recommendations

E-IN-MMS-0055-2004	         Independent Auditors’ Report on the Minerals Management Service’s
                            Financial Statements for Fiscal Years 2004 and 2003 (02/03/2005);
                            18 Recommendations

E-IN-MMS-0006-2005	         Management Issues Identified During the Audit of the Minerals
                            Management Service’s Fiscal Years 2004 and 2003 Financial Statements
                            (02/03/2005); 10 Recommendations	

Multi-Office Audits

X-IN-MOA-0080-2003	         Independent Auditors’ Report on the U.S. Department of the Interior’s
                            Fiscal Year 2003 Annual Report on Performance and Accountability
                            (11/28/2003); 39 Recommendations

C-IN-MOA-0042-2003	         Fleet Management Operations, U.S. Department of the Interior (02/09/2004);
                            3 Recommendations

X-IN-MOA-0043-2004	         Management Issues Identified During the Audit of the Department of
                            the Interior’s Fiscal Year 2003 Financial Statements (02/12/2004);
                            19 Recommendations

C-EV-MOA-0094-2003	         Department of the Interior Contracting for Temporary and Critical Staffing
                            Needs (09/30/2004); 5 Recommendations

X-IN-MOA-0054-2004	         Independent Auditors’ Report on the Fiscal Year 2004 Annual Report on
                            Performance and Accountability of the U.S. Department of the Interior
                            (11/15/2004); 66 Recommendations

E-IN-MOA-0008-2004	         Department of the Interior Workers’ Compensation Program (05/09/2005);
                            2 Recommendations




42   Semiannual Report to the Congress - October 1, 2005 - March 31, 2006
                                                                                        Appendix Six


X-IN-MOA-0004-2005	   Management Issues Identified During the Audit of the Department of the
                      Interior’s Fiscal Years 2004 and 2003 Financial Statements (03/14/2005);
                      1 Recommendation

C-IN-MOA-0049-2004	   Department of the Interior Concessions Management (06/13/2005);
                      6 Recommendations

C-IN-MOA-0040-2004	   U.S. Department of the Interior Hazardous Materials Site Management
                      (08/22/2005); 7 Recommendations

National Park Service

1998-I-0406	          Follow-up of Recommendations Concerning Utility Rates Imposed by the
                      National Park Service (04/15/1998); 5 Recommendations

2003-I-0013	          Yosemite National Park’s Museum Collection, National Park Service
                      (03/31/2003); 1 Recommendation

E-IN-NPS-0067-2003	   Independent Auditors’ Report on the National Park Service’s Financial State-
                      ments for Fiscal Years 2003 and 2002 (12/22/2003); 11 Recommendations

E-IN-NPS-0037-2004	   Management Issues Identified During the Audit of the National Park Service’s
                      Fiscal Year 2003 Financial Statements (01/07/2004); 15 Recommendations

A-IN-NPS-0074-2003	   Improvements Needed In Managing Information Technology System Security,
                      National Park Service (03/29/2004); 12 Recommendations

E-IN-NPS-0056-2004	   Independent Auditors’ Report on the National Park Service’s Financial State-
                      ments for Fiscal Years 2004 and 2003 (12/10/2004); 26 Recommendations

E-IN-NPS-0007-2005	   Management Issues Identified During the Audit of the National Park
                      Service’s Fiscal Years 2004 and 2003 Financial Statements (01/05/2005);
                      30 Recommendations

C-IN-NPS-0013-2004	   The National Park Service’s Recording of Facility Maintenance Expenditures
                      (01/26/2005); 7 Recommendations

Office of the Secretary

2003-I-0056	          Evaluation Report on the Department of the Interior Working Capital Fund
                      (06/16/2003); 2 Recommendations

E-IN-DMO-0068-2003	   Independent Auditors’ Report on the Departmental Offices’ Financial State-
                      ments for Fiscal Years 2003 and 2002 (12/19/2003); 18 Recommendations

E-IN-DMO-0034-2004	   Management Issues Identified During the Audit of the Departmental Offices’
                      Fiscal Year 2003 Financial Statements (01/21/2004); 7 Recommendations

E-IN-OSS-0058-2004	   Independent Auditors’ Report on the Departmental Offices’ Financial State-
                      ments for Fiscal Years 2004 and 2003 (12/06/2004); 18 Recommendations



                      Semiannual Report to the Congress - October 1, 2005 - March 31, 2006             43
 Appendix Six


E-IN-OSS-0008-2005	         Management Issues Identified During the Audit of Departmental
                            Offices’ Fiscal Years 2004 and 2003 Financial Statements (02/24/2005);
                            31 Recommendations

Office of the Special Trustees for American Indians

1997-I-1169	                Judgment Funds Awarded to the Papago Tribe of Arizona (09/15/1997);
                            2 Recommendations

1997-I-1167	                Judgment Funds Awarded to the Turtle Mountain Band of Chippewa Indians
                            (09/22/1997); 1 Recommendation

1997-I-1168	                Judgment Funds Awarded to the Navajo Nation (09/22/1997);
                            1 Recommendation

2002-I-0027	                Independent Auditors’ Report on the Office of Special Trustee for American
                            Indians’ Tribal and Other Trust Funds and Individual Indian Monies Trust
                            Funds Financial Statements for Fiscal Years 2001 and 2000 Managed by the
                            Office of Trust Funds Management (04/25/2002); 3 Recommendations

Q-IN-OST-0075-2003	         Independent Auditors’ Report on the Tribal and Other Trust Funds and Indi-
                            vidual Indian Monies Trust Funds Financial Statements for Fiscal Years 2003
                            and 2002 Managed by the Office of the Special Trustee for American Indians
                            (12/09/2003); 3 Recommendations

Q-IN-OST-0025-2004	         Management Issues Identified During the Audit of the Office of the Spe-
                            cial Trustee for American Indians’ Fiscal Year 2003 Financial Statements
                            (12/22/2003); 3 Recommendations

Q-IN-OST-0066-2004	         Independent Auditors’ Report on the Tribal and Other Trust Funds and In-
                            dividual Indian Trust Funds Financial Statements for Fiscal Years 2004 and
                            2003 Managed by the Office of the Special Trustee for American Indians
                            (11/29/2004); 8 Recommendations

Q-IN-OST-0004-2005	         Management Issues Identified During the Audit of the Office of the Spe-
                            cial Trustee for American Indians’ Fiscal Year 2004 Financial Statements
                            (01/10/2005); 4 Recommendations

Office of Surface Mining Reclamation and Enforcement

C-IN-OSM-0024-2004	         Management Issues Identified During the Audit of the Office of Surface Min-
                            ing Reclamation and Enforcement’s Fiscal Year 2003 Financial Statements
                            (12/30/2003); 3 Recommendations

S-IN-OSM-0087-2003-D	       Evaluation Report on State Operated Coal Regulatory Programs (10/27/2004);
                            2 Recommendations

C-IN-OSM-0005-2005	         Management Issues Identified During the Audit of the Office of Surface Min-
                            ing Reclamation and Enforcement’s Fiscal Years 2004 and 2003 Financial
                            Statements (02/11/2005); 3 Recommendations



44   Semiannual Report to the Congress - October 1, 2005 - March 31, 2006
                                                                                              Appendix Six


U.S. Fish and Wildlife

97-I-1305	               Audit Report on the Automated Law Enforcement System, U.S. Fish and
                         Wildlife Service (09/30/1997); 2 Recommendations

2000-I-0050	             Miscellaneous Receipts, U.S. Fish and Wildlife Service (11/09/99);
                         1 Recommendation

C-IN-FWS-0078-2003	      Independent Auditors’ Report on the US Fish and Wildlife Service’s Financial
                         Statements for Fiscal Years 2003 and 2002 (12/22/2003); 8 Recommendations

C-IN-FWS-0023-2004	      Management Issues Identified During the Audit of the U.S. Fish and
                         Wildlife Service’s Fiscal Year 2003 Financial Statements (12/23/2003);
                         1 Recommendation

C-IN-FWS-0064-2004	      Independent Auditors’ Report on the Fish and Wildlife Service’s Financial
                         Statements for Fiscal Years 2004 and 2003 (02/14/2005); 2 Recommendations

C-IN-FWS-0004-2005	      Management Issues Identified During the Audit of the Fish and Wildlife
                         Service’s Fiscal Years 2004 and 2003 Financial Statements (04/07/2005);
                         6 Recommendations

U.S. Virgin Islands

V-IN-VIS-0072-2004	      Grants for Waste Disposal Projects, Department of Public Works, Government
                         of the Virgin Islands (05/11/2005); 1 Recommendation

V-IN-VIS-0078-2004	      Fish and Wildlife Grants for Boating Access Facilities, Government of the
                         Virgin Islands (08/19/2005); 2 Recommendations




                      Semiannual Report to the Congress - October 1, 2005 - March 31, 2006                   45
Page Intentionally Left Blank
                                                                                                      Appendix Seven


Summary of Insular Area Reports With Open
Recommendations Over 6 Months Old
Note: These Insular Area reports contain recommendations made specifically to Insular Area governors and
other Insular Area officials, who do not report to the Secretary and are not subject to the policy, guidance and
administrative oversight established by the Assistant Secretary for Policy, Management and Budget.

INTERNAL AUDITS
American Samoa

P-IN-AMS-0117-2003	              American Samoa: Top Leadership Commitment Needed to Break the Cycle of
                                 Fiscal Crisis (09/19/2005); 3 Recommendations

U.S. Virgin Islands

1997-I-0040	                     Division of Agriculture, Department of Economic Development and
                                 Agriculture, Government of the Virgin Islands (10/21/1996);
                                 1 Recommendation

1998-I-468	                      Followup of Recommendations Relating to the Bureau of Corrections,
                                 Department of Justice, Government of the Virgin Islands (05/29/1998);
                                 1 Recommendation

1999-I-365	                      Followup of Recommendations Relating to Personnel Management Practices,
                                 Division of Personnel, Government of the Virgin Islands (03/26/1999);
                                 1 Recommendation; $8,300,000

2001-I-107	                      Administrative Functions, Legislature of the Virgin Islands (12/29/2000);
                                 8 Recommendations; $1,320,293

2002-I-0001	                     Virgin Islands Fire Service, Government of the Virgin Islands (10/30/2001);
                                 2 Recommendations; $2,014,994

2002-I-0009	                     Virgin Islands Housing Finance Authority, Government of the Virgin Islands
                                 (12/31/2001); 1 Recommendation

2002-I-0010	                     Administrative Functions, Virgin Islands Police Department, Government of
                                 the Virgin Islands (02/13/2002); 5 Recommendations; $2,592,873

2002-I-0042	                     Federal Highway Grants, Department of Public Works, Government of the
                                 Virgin Islands (08/16/2002); 5 Recommendations; $462,747

2002-I-0046	                     Professional Service Contracts, Government of the Virgin Islands
                                 (09/30/2002); 1 Recommendation; $1,019,791

2003-I-0002	                     Public Finance Authority, Government of the Virgin Islands (11/22/2002);
                                 9 Recommendations; $30,524,687




                                Semiannual Report to the Congress - October 1, 2005 - March 31, 2006               47
 Appendix Seven


2003-I-0003	                Compliance With the Memorandum of Understanding Between the
                            Governor of the Virgin Islands and the Secretary of the Interior (01/06/2003);
                            6 Recommendations

2003-I-0067	                Emergency Services Surcharge Collections by Innovative Telephone Corpora-
                            tion on Behalf of the Government of the Virgin Islands (09/26/2003);
                            1 Recommendation; $256,380

V-IN-VIS-0001-2004	         Procurement Activities, Virgin Islands Port Authority, Government of the
                            Virgin Islands (03/28/2005); 10 Recommendations; $852,013

V-IN-VIS-0110-2003	         Indirect Cost Fund, Government of the Virgin Islands (06/22/2005);
                            2 Recommendations

V-IN-VIS-0078-2004	         Fish and Wildlife Grants for Boating Access Facilities, Government of the
                            Virgin Islands (08/19/2005); 1 Recommendation

V-IN-VIS-0100-2004	         Contracts for Facility Improvements, Virgin Islands Fire Service, Government
                            of the Virgin Islands (09/20/2005); 2 Recommendations; $81,500	




48   Semiannual Report to the Congress - October 1, 2005 - March 31, 2006
                                                                                          Appendix Eight


List of Reports Issued on Information Security
NSM-EV-MOI-0013-2005	   Annual Evaluation of the Department’s Information Security Program,
                        October 6, 2005.

NSM-EV-OSS-004-2006	    Flash Report, “Security Vulnerabilities at the Information Technology
                        Center Place Sensitive Data at Risk,” January 17, 2006.




                        Semiannual Report to the Congress - October 1, 2005 - March 31, 2006          49
Page Intentionally Left Blank
                                                                                               Appendix Nine


Cross References to the Inspector General Act
                                                                                                    Page

Section 4(a)(2)        Review of Legislation and Regulations                                         N/A

Section 5(a)(1)        Significant Problems, Abuses, and Deficiencies                                1-23

Section 5(a)(2)        Recommendations for Corrective Action With Respect to Significant             1-23
                       Problems, Abuses, and Deficiencies

Section 5(a)(3)        Significant Recommendations From Agency’s Previous Reports on                41-46
                       Which Corrective Action Has Not Been Completed

Section 5(a)(4)        Matters Referred to Prosecutive Authorities and Resulting Convictions            v

Section 5(a)(5)        Matters Reported to the Head of the Agency                                    N/A

Section 5(a)(6)        List of Audit Reports Issued During the Reporting Period                     27-30

Section 5(a)(7)        Summary of Significant Reports                                                1-23

Section 5(a)(8)        Statistical Table – Questioned Costs                                            33

Section 5(a)(9)        Statistical Table – Recommendations That Funds Be Put to Better Use             34

Section 5(a)(10)       Summary of Audit Reports Issued Before the Commencement of the               37-40
                       Reporting Period for Which No Management Decision Has Been Made

Section 5(a)(11)       Significant Revised Management Decisions Made During the                      N/A
                       Reporting Period

Section 5(a)(12)       Significant Management Decisions With Which the Inspector General             N/A
                       Is in Disagreement

Section 5(a)(13)       Information Described Under Section 05(b) of the Federal Financial              49
                       Management Improvement Act of 1996




N/A - Not Applicable this Reporting Period




                                     Semiannual Report to the Congress - October 1, 2005 - March 31, 2006   51
Page Intentionally Left Blank
                                                                         General Information




                                             By Mail
                                    U.S. Department of the Interior
                                      Office of Inspector General
                                 1849 C St. NW Mail Stop 5341, MIB
                                       Washington, DC 20240




                                                               By Internet
                                                                 www.oig.doi.gov




By Fax
202.208.4998




                                                           By Phone
                                                             202.208.4618




               Semiannual Report to the Congress - October 1, 2005 - March 31, 2006   53
Report Waste, Fraud, Abuse, and Mismanagement
Waste, fraud, abuse, and mismanagement in government concern everyone: Office of Inspector
General staff, departmental employees, and the general public. We actively solicit allegations of
any inefficient and wasteful practices, fraud, and abuse related to departmental or Insular Area
programs and operations. You can report allegations to us in several ways.


                                                           U.S. Department of the Interior
                                                                  Office of Inspector General
                                                                               1849 C St. NW
                                                                          Mail Stop 5341 MIB
                                                                    Washington, D.C. 20240

                                                        OIG Hotline: 800-424-5081 (toll free)
                                                             202-208-5300 (DC, metro area)

                                                                            Fax: 202-208-6081




                                                                          www.oig.doi.gov
